No. 20-366
In the

Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, et al.,
Appellants,
v.
NEW YORK, et al.,
Appellees.
On A ppeal from the United States District Court
for the Southern District of New York
BRIEF OF THE LEAGUE OF WOMEN VOTERS OF
THE UNITED STATES, THE LEAGUE OF WOMEN
VOTERS CALIFORNIA, THE LEAGUE OF WOMEN
VOTERS TEXAS, AND THE LEAGUE OF WOMEN
VOTERS FLORIDA AS AMICI CURIAE
IN SUPPORT OF APPELLEES
Michael J. Pisko
Patricia Rothenberg
Melissa Pettit
Pillsbury Winthrop Shaw
Pittman LLP
31 West 52nd Street
New York, NY 10019
(212) 858-1000

Blaine I. Green
Counsel of Record
Kevin M. Fong
Pillsbury Winthrop Shaw
Pittman LLP
Four Embarcadero Center,
22nd Floor
San Francisco, CA 94111
(415) 983-1000
blaine.green@pillsburylaw.com

Jennifer G. A ltman
Pillsbury Winthrop
Shaw Pittman LLP
600 Brickell Avenue, Suite 3100
Miami, FL 33131
(786) 913-4900
Counsel for Amici Curiae
November 16, 2020
299679

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTORITIES  . . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

THE MEMORANDUM UNDERMINES
REPRESENTATIVE DEMOCRACY,
A N D E R O DE S T RU S T I N OU R
CONSTITUTIONAL SYSTEM  . . . . . . . . . . . . . 3
A. Representation Based on Accurate
Apportionment Is the Bedrock of
Our Democracy  . . . . . . . . . . . . . . . . . . . . . . . 5
B. The Exclusion of Undocumented
Immigrants from the Apportionment
Base Would Create a Loss of Faith
i n t he Democrat ic P rocess a nd
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II. THE MEMORANDUM WILL CAUSE
S O C I E T A L W I T H D R AWA L O F
FAMILIES WITH UNDOCUMENTED
MEMBERS, HARMING EVERYONE . . . . . . 10

ii
Table of Contents
Page
III. I M P L E M E N T A T I O N O F T H E
M EMOR A N DU M W I LL H A R M
INDI V IDUA L STAT ES A ND
THEIR CITIZENS, REGA RDLESS
OF POLITICAL A FFILIATION OR
LEGAL STATUS . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Baker v. Carr,
369 U.S. 186 (1962)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Dep’t of Commerce v. New York,
139 S. Ct. 2551 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Evenwel v. Abbott,
136 S. Ct. 1120 (2016)  . . . . . . . . . . . . . . . . . . . . . . .  7, 16
Franklin v. Massachusetts,
505 U.S. 788 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
New York v. Dep’t of Commerce,
351 F. Supp. 3d 502 (S.D.N.Y.), aff’d in part,
rev’d in part and remanded sub nom. Dep’t of
Commerce v. New York, 139 S. Ct. 2551 (2019), and
appeal dismissed, No. 19-212, 2019 WL 7668098
(2d Cir. Aug. 7, 2019) . . . . . . . . . . . . . . . . . . . . . . . 12, 18
Utah v. Evans,
536 U.S. 452 (2002)  . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
CONSTITUTIONS
U.S. Const., art. I, § 2, cl. 3 . . . . . . . . . . . . . . . . . . . . 6, 5, 7
U.S. Const., art. II, § 1, cl. 2  . . . . . . . . . . . . . . . . . . . 15, 18

iv
Cited Authorities
Page
U.S. Const., amend., XIV  . . . . . . . . . . . . . . . . . . . . . . . . 15
U.S. Const., amend., XIV, § 2 . . . . . . . . . . . . . . . . . . 1, 5, 7
U.S. Const., amend., XIX  . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
Cited Authorities
Page
OTHER AUTHORITIES
A m . I m m i g r. C o u n c i l , Im m i g r a n t s i n
California (August 6, 2020), https://www.
americanimmigrationcouncil.org/research/
immigrants-in-california . . . . . . . . . . . . . . . . . . . . . . . 8
A m . I m m i g r. C o u n c i l , Im m i g r a n t s i n
Flor ida (Aug ust 6, 2020), https://w w w.
americanimmigrationcouncil.org/research/
immigrants-florida  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Am. Immigr. Council, Immigrants in Texas (August 6,
2020), https://www.americanimmigrationcouncil.
org/research/immigrants-in-texas . . . . . . . . . . . . . . . 8
A ndrew Hacker, Congressional Districting: The
Issue of Equal Representation (1963) . . . . . . . . . . 19
Charles A. Beard & M ary Ritter , A merican
	Citizenship (1914) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Election Data Serv., Some Change in Apportionment
Allocations with New 2017 Census Estimates;
But Greater Change Likely by 2020, 2-3 (Dec.
26, 2017), https://www.electiondataservices.
c om / w p - c ont e nt / uplo a d s / 2 017/ 1 2 / N R _
Appor17c3wTablesMapsC2.pdf . . . . . . . . . . . . . . . . . 16
Gabor Attila Toth, Breaking the Equilibrium:
From Distrust of Representative Government
to an Author itar ian Executive, Wa s h .
Int’l L.J. (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

vi
Cited Authorities
Page
Hansi Lo Wang, Four States Are Shar ing
Driver’s License Info to Help Find Out
Who’s a Citizen, NPR (July 14, 2020), https://
w w w.npr.org/2020/07/14/890798378/southdakota-is-sharing-drivers-license-info-to-help
-find-out-who-s-a-citizen. . . . . . . . . . . . . . . . . . . . . . . 14
Jeffrey S. Pa s sel a n d D’ Ver a C ohn , P ew
R es . C tr ., U.S. Unauthorized I mmigra nt
Total Dips to Lowest Level in a Decade
(Nov. 27, 2018), https://www.pewresearch.
org / hispanic/w p -content /uploads/
sites/5/2019/03/Pew-Research-Center_201811- 2 7_U- S -Un aut hor i z e d -I m m i g r a nt s Total-Dips_Updated-2019-06-25.pdf  . . . . . . . . . . . . 15
L arry D ia mond et al ., Authoritarian G oes
	Global: The Challenge to Democracy (2016) . . . . . 9
Matt Barreto et al., New Research Shows Just
How Badly a Citizenship Question Would
Hur t the 2020 Census, T he Wa shingt on
P o s t , ( A p r i l 2 2 , 2 019), ht t p s : // w w w.
washing tonpost.com /politics/2019/04 /22 /
n e w - r e s e a r c h - s h o w s -j u s t - h o w - b a d l y citizenship-question-would-hurt-census/  . . . . . . . . 12
Memorandum on Excluding Illegal Aliens From the
Apportionment Base Following the 2020 Census,
85 Fed. Reg. 44,679 (July 23, 2020) . . . . . . . . . . passim

vii
Cited Authorities
Page
M i r i a m J o r d a n , “ We ’ r e Pe t r i f i e d ”:
Immigrants Afraid to Seek Medical Care
for Coronavirus, N.Y. TIMES (March 18,
2020), https://www.nytimes.com/2020/03/18/
us/coronavirus-immigrants.html  . . . . . . . . . . . . . . . 13
Pedraza & Osorio, Cour ted and Depor ted:
The Salience of Immigration Issues and
Avoidance of Police, Health Care, and
Education Ser vices among Latinos, 42
A ztlán: J. Chicano Stud. 2, 255-59 (2017). . . . . . . . 13
P e w R s c h . C t r . , A m e r ic a n s ’ Vi e w o f
Government: Low Trust, but Some Positive
Performance Ratings (Sept. 14, 2020) https://
w w w.pewresearch.org/politics/2020/09/14/
americans-views-of-government-low-trustbut-some-positive-performance-ratings  . . . . . . . . . 10
Roy Elis, Neil Malhotra & Marc Meredith,
Apportionment Cycles as Natural Experiments,
4 Pol. Analysis 17, 358–376 (2009) . . . . . . . . .  17, 18, 19
S arah Repucci, Freedom House, Freedom in
the World 2020: A Leaderless Struggle for
Democracy (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Stephen Ansolabehere, Alan Gerber, & Jim Snyder, 4
A m. Pol. Sci. Rev. 96, 767-777 (2002) . . . . . . . . . . . .  17

1
INTEREST OF AMICI CURIAE1
Amici, the League of Women Voters of the United
States, the League of Women Voters of Texas, the League
of Women Voters of Florida, and the League of Women
Voters of California (collectively, “the League”), are
nonpartisan, community-based political organizations. One
of the League’s primary goals is to promote government
that is representative, accountable, responsive, and that
assures opportunities for effective and inclusive voter
participation in government decision-making. The League
has advocated for representative government and robust
voter participation since its initial formation in 1920. The
League has direct interests in the issues here.
INTRODUCTION AND SUMMARY
OF ARGUMENT
Trust is at the foundation of our representative
democracy. Ensuring an accurate census and apportionment
base is at the heart of the American government. The
requirement that “Representatives shall be apportioned
among the several states according to their respective
numbers, counting the whole number of persons in each
state” is enshrined in the Constitution itself. 2 Through the
apportionment mandate, the Constitution assures full and
fair representation, engendering trust and reliance on the
“representative” promise of our democracy.
1. The parties have consented to the filing of this brief. No
counsel for a party authored this brief in whole or in part, and no
such counsel or party made a monetary contribution intended to fund
the preparation or submission of this brief. No person other than
amici curiae or their counsel made a monetary contribution to its
preparation or submission.

2
President Trump’s Memorandum dated July 21,
2020 3 undermines trust in the Constitutional promise
of representative democracy. Contrary to the express
language of the Constitution, the Memorandum directs
the Secretary of Commerce to exclude all undocumented
immigrants from the apportionment base of the decennial
census. By contravening the Constitution’s basic
apportionment mandate—i.e., by refusing to apportion
representatives based on the whole number of persons
in each state—the Memorandum will erode trust in our
representative democracy and Constitutional system. The
Memorandum will negatively impact how Americans view
and act within our democracy.
The Memorandum has already decreased participation
in the 2020 census. If implemented, the Memorandum
will reduce participation in future censuses and depress
voter turnout in states whose representation is artificially
reduced, resulting in an erosion in Americans’ trust in
the government. Further, the Memorandum will likely
cause withdrawal of undocumented immigrants and
their families from society—including political and civic
engagement—that will harm everyone. As a result, the
Memorandum will undermine the work of civic-oriented
organizations, such as the League, to increase civic
engagement and voter participation.

3. Memorandum on Excluding Illegal Aliens From the
Apportionment Base Following the 2020 Census, 85 Fed. Reg. 44,679
(July 23, 2020) (the “Memorandum”).

3
In addition, the Memorandum risks unfairly and
artificially reducing certain states’ representation in
Congress, while improperly increasing the representation
of other states. Thus, the impact of the Memorandum will
be felt not only by undocumented immigrants, but by all
citizens in every state. Ultimately, the Memorandum,
if implemented, w ill result in decreased political
representation for states with sizable populations of
undocumented immigrants, as their apportionment base
would be artificially lowered (the “Artificially Lowered
Apportionment States”). Such an unconstitutional
apportionment will sow distrust in the representative
nature of our democracy.
ARGUMENT
I.

THE MEMORA N DU M U N DERMIN ES
R EPR E SEN TAT I V E DEMO C R AC Y, A N D
ERODES TRUST IN OUR CONSTITUTIONAL
SYSTEM.

The Memorandum’s clear intent—and its likely
effect—is to shift the political representation among the
states, reducing representation in Congress of states
with sizable undocumented immigrant populations.4 The
directive to not count undocumented immigrants in the
apportionment base is constructed on President Trump’s
“determin[ation] that respect for the law and protection
of the integrity of the democratic process warrant
the exclusion” of undocumented immigrants from the
apportionment base. 5 In fact, the Memorandum has the
4. See Memorandum.
5. Id.

4
opposite result, violating the Constitution and hundreds
of years of precedent thereunder, as well as violating
federal statutory law. The Memorandum’s practical effect
is an erosion of democracy through a reduction in political
representation, increased political apathy, distrust and
disinterest.
This result impacts all Americans. 6 Excluding
undocumented immigrants from the apportionment
base runs counter to the fundamental principle of
representative democracy: accurate representation.
As this Court recognized last year, “representational
rights” are “crucial” and “depend on the census and the
apportionment.” 7
In addition, the broader societal impact of the
Memorandum, following this Administration’s efforts
to include a citizenship question on the census8 , should
be considered. The Administration’s repeated attacks
on undocumented immigrants and the census in general
have caused immigrants and legal residents alike to lose
faith in and even become fearful and distrustful of the
government. Those who become distrustful or apathetic
are likely to be less politically involved across all levels of
civic life, including voting.
6. The negative effects of the Memorandum will be most
acutely and directly felt by states whose populations include sizable
numbers of undocumented immigrants, i.e. the Artificially Lowered
Apportionment States (infra, Part III), but all will be affected.
7. Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2569 (2019),
quoting Franklin v. Massachusetts, 505 U.S. 788, 790–791 (1992)
(Stevens, J., concurring in part and concurring in the judgment).
8. See generally, Dep’t of Commerce, 139 S. Ct. 2551

5
In short, The Memorandum stands to erode faith in
our democracy and the Constitution. This is not just an
“immigrant” issue, but a representative democracy issue,
which is at the core of the League’s organizational purpose
and mission.
A.

Representation Based on Accurate
Appor tionment Is the Bed rock of Our
Democracy.

Representative democracy depends on an accurate
count of the population that is to be governed through
its elected representatives. Indeed, the Founders of this
country viewed the idea of representation as even more
important than suffrage itself.9
From the start, representation was meant to extend
further than the right to vote. For example, women were
counted in the census for the first 130 years of our republic,
despite not having the right to vote until adoption of the
Nineteenth Amendment. Similarly, children are counted
today in the census, despite not having the right to vote.
There is no rational distinction to be made between these
groups and undocumented persons, as it is evident that
inclusion in the census is not dependent on one’s right to
vote. The Constitution makes clear that all persons should
be counted for purposes of apportionment and makes no
reference to their documentation status.10 Thus, excluding
undocumented immigrants from the congressional
apportionment base undermines the “representative” core
of representative democracy.
9. Charles A. Beard & M ary Ritter, A merican Citizenship
(1914).
10. U.S. Const. amend. XIV, § 2; see id. art. I, § 2, cl. 3.

6
The Founders based apportionment on numbers
from the actual enumeration in order to “limit political
chicanery.”11 By attempting to exclude undocumented
immigrants from the congressional apportionment base,
the Memorandum violates the “actual Enumeration”
requirement. Reallocating political power away from
states with larger undocumented immigrant populations
is the explicit purpose of the Memorandum.
B. The Exclusion of Undocumented Immigrants
from the Apportionment Base Would Create a
Loss of Faith in the Democratic Process and
Constitution.
The census is critical for the equitable and accurate
distribution of political power based on population.
Consequentially, the exclusion of undocumented
immigrants from the apportionment base will create
a loss of faith in the democratic process. States such
as Texas and California will almost certainly lose
congressional seats and, thus, suffer loss of political
power.12 Those lost seats will shift to other states whose
political power will increase by windfall.13 This inequity
can be expected to discourage residents of Artificially
Lowered Apportionment States from participating in a
system tilted against them and will assuredly result in
the Artificially Lowered Apportionment States not being
adequately represented.
11. Utah v. Evans, 536 U.S. 452, 500 (2002) (Thomas, J.,
concurring in part and dissenting in part).
12. See App. 344-45, ¶ 11, Table 6.
13. See id.

7
American democracy was built on the idea that our
representatives would be “apportioned among the several
states according to their respective numbers, counting the
whole number of persons in each state.”14 The Supreme
Court has stated that to establish a representative
democracy, “the Framers chose to use population . . . as
the basis for representation,”15 and that “representatives
serve all residents,”16 not only citizens. Certainly, the
Framers could have limited the representation to only
citizens, but they did not. The exclusion of undocumented
immigrants from the apportionment base is contrary
to the Constitution and the foundational principles that
guide our democratic system. Such obvious disregard for
the Constitution and representative democracy can be
expected to discourage participation in civil institutions,
including the census17 and voting in elections.
Indeed, the Memorandum, together w ith the
Administration’s other attacks on the census, has already
dampened participation. The League is heavily involved
in promoting awareness and engagement in voting and
the census, and the League has observed increasing
levels of disinterest and apathy in responding to the
current census. The Administration’s attempt to include
a “citizenship question” and, most recently, the exclusion
of undocumented immigrants from the apportionment
base, has generated fear in immigrant communities
around census participation—i.e. that immigrants cannot
14. U.S. Const. amend. XIV, § 2; see id. art. I, § 2, cl. 3.
15. Utah, 536 U.S. at 478.
16. Evenwel v. Abbott, 136 S. Ct. 1120, 1132 (2016).
17. See App. 255-56, ¶ 14.

8
benefit from participating, but could face retaliation or
other negative consequences. Decreased participation
due to fear of immigration consequences (and no benefits
based on the Memorandum) is especially impactful in the
Artificially Lowered Apportionment States, given the
proportion of undocumented immigrants among their
total population.18
The impacts of the Memorandum are likely to extend
beyond just the next decade by entrenching fear and distrust
of the federal government that is difficult to reverse. This
type of entrenched fear and distrust can be seen, for
example, in the African American community, which has
experienced long-term discrimination in many different
contexts, including distribution of federal benefits (e.g.,
18. In Texas alone there are 2.7 million people, including
1.4 million U.S. citizens, who live with at least one undocumented
family member (based on data from 2010 to 2014). See Am. Immigr.
Council, Immigrants in Texas (August 6, 2020), https://www.
americanimmigrationcouncil.org/research/immigrants-in-texas
(last accessed Nov. 9, 2020). In California, undocumented immigrants
comprised nine percent of the state’s workforce in 2016. See Am.
Immigr. Council, Immigrants in California (August 6, 2020), https://
www.americanimmigrationcouncil.org/research/immigrants-incalifornia (last accessed Nov. 9, 2020). In Florida, there are nearly
one million people, including almost 500,000 U.S. citizens, who
lived with at least one undocumented immigrant between 2010 and
2014. See Am. Immigr. Council, Immigrants in Florida (August
6, 2020), https://www.americanimmigrationcouncil.org/research/
immigrants-florida (last accessed Nov. 9, 2020). The Memorandum’s
effort to exclude undocumented immigrants from the congressional
apportionment base will intimidate those families and citizens who
live with an undocumented immigrant, as well as immigrants who
are here legally, from participating not only in the census, but in
civic life more broadly. See infra, Part II.

9
veterans assistance benefits and farm subsidies, among
others). The Memorandum will lead to decreased census
participation and other government-based interactions,
such as registering to vote and voting, which will likely
impact immigrant communities and racial minorities
disproportionately. If people choose not to participate
in a census out of fear, or a belief that their response
will not matter, the enumeration becomes less accurate,
causing undercounting and under-representation, eroding
confidence in representative democracy.
Increased distrust of representative government
has the potential to undermine democracy. 19 The
Memorandum’s cor rosive effect on democracy is
compounded by other forces. According to the latest
Freedom in the World report by Freedom House, a think
tank founded in 1941 that monitors freedom and democracy
around the world, between 2009 and 2019, America has
declined by eight points on a scale measuring freedom
from 1-100. 20 The report mentions that for the past several
19. “Anti-democratic tendencies affect not only the periphery of
democracy, usually considered more vulnerable, but also the countries
traditionally regarded at its core.” Gabor Attila Toth, Breaking the
Equilibrium: From Distrust of Representative Government to an
Authoritarian Executive, Wash. Int ’l L.J. (2019) (“even a country
with a long pedigree of democratic traditions may not be entirely
immune to the creep of authoritarian ideas and practices” that can
result from the institutional erosion of democracy and intolerance
toward vulnerable minorities). “Scholars warn that the twenty-first
century could become a century of authoritarianism as a result of the
institutional erosion of democracy.” Id. (citing Larry Diamond et al.,
Authoritarian Goes Global: The Challenge to Democracy (2016)).
20. Sarah Repucci, Freedom House, Freedom in the World
2020: A Leaderless Struggle for Democracy (2020).

10
years the United States has seen efforts to undermine
democratic norms and standards, including pressure on
electoral integrity, judicial independence, and safeguards
against corruption.21The Memorandum is another example
of an act meant to undermine our democratic norms and
standards. Its impact on democracy should be considered
in the broader context of democratic erosion and distrust
in America. Public trust in the federal government has
been at near-record lows for years. 22 Trust is considered a
necessary precondition for democracy. As such, a decline
in trust is an existential threat to democracy. A democratic
government does not have to crumble in one fell swoop.
Continuous and varied efforts at eroding democracy over
time are just as dangerous, even if less obvious.
II. THE MEMORANDUM WILL CAUSE SOCIETAL
W I T H D R AWA L O F FA M I L I E S W I T H
UNDOCUMENTED MEMBERS, HARMING
EVERYONE.
The Memorandum will cause tangible social harm
to all states arising from the withdrawal of immigrant
families from civic life and economic participation. Such
withdrawal is a natural consequence of fear from increased
government attention and monitoring that could lead to
detention, separation from their children or family, and
possible deportation.
21. Id.
22. Pew Rsch. Ctr., A mericans’ View of G overnment: Low
Trust, but Some Positive Performance Ratings (Sept. 14, 2020)
https://www.pewresearch.org/politics/2020/09/14/americans-viewsof-government-low-trust-but-some-positive-performance-ratings/
(last accessed Nov. 9, 2020).

11
The League has significant direct experience
guiding and advocating for vulnerable undocumented
immigrants and families who are timid or terrified—
even under normal circumstances—of interacting with
the government or putting themselves in situations where
they may come in contact with authorities, especially
in the area of child public health. Just as legalization
and legitimization of immigration status causes social
and economic benefits to society as a whole through
increased immigrant participation—e.g., through a surge
in investment in language skills, education, training,
and general economic assimilation—the converse is
also true: increased spotlighting and delegitimization of
undocumented status causes a reactionary withdrawal
of undocumented immigrants, their families, and their
communities from societal participation, leading to social
and economic harm.
The specter of a government microscope conjured
by this Memorandum will likely cause many of these
individuals and families to avoid civic life and engagement,
or seek assistance from public programs or authorities, even
when in dire need. Withdrawal jeopardizes public health,
public education and public safety, because those facing
fear of adverse consequences based on immigration status
will avoid even the most necessary public services such
as police protection from violence, health services, going
to work, sending their children to school, or appearing in
court to defend their rights. The Memorandum will have
a disparately negative impact on Hispanic communities
and other people of color who are fearful and reluctant
to engage with even the most necessary public services,
and the effects of such withdrawal will be felt by society
as a whole.

12
Withdrawal behavior—where immigrants and their
families disengage from interactions with government
officials for fear of being arrested, detained, or deported—
is well documented. For example, w ithdrawal of
immigrants, their families, and communities, occurred
in 2019, when the Administration announced its intention
to add a question to the census form inquiring about the
respondent’s citizenship status. 23 The addition of the
question caused distrust among noncitizens and fear of
deportation, leading to a substantially lower likelihood
they would fill out a census form.
Withdrawal is likely to occur when immigrants and
those concerned about immigration status believe they are
at an increased threat for arrest and detention by ICE, and
as a result, are less likely to attend state court hearings to
protect their rights, to testify about housing complaints, as
a witness, or to accompany a family member. 24 In addition,
those concerned about immigration status are less likely
to go to the police as witness, to call the local police if they
witness a crime, or to submit a police report as a victim. 25
23. Matt Barreto et al., New Research Shows Just How
Badly a Citizenship Question Would Hurt the 2020 Census, The
Washington Post, (April 22, 2019), https://www.washingtonpost.com/
politics/2019/04/22/new-research-shows-just-how-badly-citizenshipquestion-would-hurt-census/ (hereinafter “Barreto, New Research”)
(last accessed Nov. 9, 2020); see also New York v. Dep’t of Commerce,
351 F. Supp. 3d 502, 578-93 (S.D.N.Y.), aff’d in part, rev’d in part
and remanded sub nom. Dep’t of Commerce v. New York, 139 S. Ct.
2551 (2019), and appeal dismissed, No. 19-212, 2019 WL 7668098
(2d Cir. Aug. 7, 2019).
24. App. 283-86, ¶¶ 47-52.
25. Id.

13
Those concerned about immigration status are also
fearful of immigration consequences that would result in
separation from their children; as a result, parents may be
more reluctant to send their children to school, or even to
seek medical care for their children. 26 For these children,
such fear and extreme interruptions to their daily lives is
likely to have long-term psychological effects.
The tr ust of immig rants, their families, and
communities in the government and public health system is
key to preventing the tragic consequences of the COVID-19
pandemic. Testing, medical care, contact tracing, and
education on the coronavirus all depend on engagement
with various governmental entities. Immigrants may be
too fearful to make the choices that protect their health
and prevent further infections in their communities, when
such choices also put them at perceived increased risk for
monitoring, arrest, or detention by ICE. 27
The League and other civic organizations, as well
as state governments, have worked hard through public
relations and educational campaigns to reverse the
withdrawal effect after this Court rejected the addition
of the citizenship question. Still, fear persists, as well as
the withdrawal effects stemming from such fear, for many
26. See, e.g., Pedraza & Osorio, Courted and Deported: The
Salience of Immigration Issues and Avoidance of Police, Health
Care, and Education Services among Latinos, 42 A ztlán: J. Chicano
Stud. 2, 255-59 (2017).
27. See, e.g., Miriam Jordan, “We’re Petrified”: Immigrants
Afraid to Seek Medical Care for Coronavirus, N.Y. TIMES (March
18, 2020), https://www.nytimes.com/2020/03/18/us/coronavirusimmigrants.html (last accessed Nov. 9, 2020).

14
immigrants and their families, despite the efforts taken
by the League and other organizations.
The Memorandum could have an even greater
withdrawal effect from public participation than the
citizenship question had in 2019. Because the government
cannot determine one’s citizenship or immigration status
from a completed census form, immigrant communities
may fear that the government will try to determine
their legal status through other means, thus leading to
withdrawal from civic life to avoid such negative attention.
The Administration has already instructed federal
agencies to seek state and federal records to determine
citizenship status—an effort with which at least four states
are complying. 28 Such a chilling effect on civic engagement
may actually be the intended goal of the Memorandum,
especially to decrease the likelihood of response of
immigrants, their families, and their communities who
are already fearful of responding to the census.
III. IMPLEMENTATION OF THE MEMORANDUM
WILL HARM INDIVIDUAL STATES AND THEIR
CITIZENS, REGARDLESS OF POLITICAL
AFFILIATION OR LEGAL STATUS.
The Memorandum, if implemented, will cause some
Artificially Lowered Apportionment States to lose
representation in the U.S. House of Representatives.
The Memorandum compels undocumented immigrants
28. Hansi Lo Wang, Four States Are Sharing Driver’s License
Info to Help Find Out Who’s a Citizen, NPR (July 14, 2020), https://
w w w.npr.org/2020/07/14/890798378/south-dakota-is-sharingdrivers-license-info-to-help-find-out-who-s-a-citizen (last accessed
Nov. 9, 2020).

15
to be excluded from the apportionment base, which
will substantially affect many individual states. An
estimated 5.5%, 5.2%, and 5.6% of the populations of
New Jersey, California, and Texas, respectively, would
be inappropriately excluded by this mandate—an
extraordinary change to the population count. 29 Moreover,
all state populations will be incorrectly calculated for
purposes of apportioning representatives, because at least
some portion of the population of every state is made up
of undocumented immigrants. 30
Undercounting the actual population unlawfully
impacts how congressional seats are apportioned among
states. Article I, Section 2, of the U.S. Constitution
provides: “Representatives and direct Taxes shall be
apportioned among the several states which may be
included within this Union, according to their respective
Numbers.” Coupled with the Fourteenth Amendment’s
requirement that “Representatives shall be apportioned
among the several states according to their respective
numbers, counting the whole number of persons in each
state . . .” (emphasis added), apportionment must be based
on the number of all people residing in the United States
regardless of whether they are here lawfully. Indeed, this
Court recently held that “the Fourteenth Amendment
calls for the apportionment of congressional districts
29. App. 361-62, ¶ 37, Table 6.
30. Id.; Jeffrey S. Passel and D’Vera Cohn, Pew Res. Ctr.,
U.S. Unauthorized Immigrant Total Dips to Lowest Level in a
Decade (Nov. 27, 2018), https://www.pewresearch.org/hispanic/
wp-content/uploads/sites/5/2019/03/Pew-Research-Center_2018-1127_U-S-Unauthorized-Immigrants-Total-Dips_Updated-2019-06-25.
pdf (last accessed Nov. 9, 2020).

16
based on the total population,” which includes non-citizen
residents, irrespective of legal status. 31
The wholesale omission of undocumented immigrants
renders the apportionment “numbers” f lawed. The
Artificially Lowered Apportionment States will have their
populations artificially decreased which, in turn, will cause
those states to have less Congressional representation in
the U.S. House of Representatives than they otherwise
would. 32 The result will be immediate malapportionment
within the House of Representatives; this result is
repugnant to fundamental principles of representative
democracy. It will also directly result in the reduction
of federal and state financial support to these states for
essential services.
For example, California and Texas are almost certain
to lose a seat if undocumented immigrants are excluded
from the apportionment base. 33 Just two-and-a-half
years ago, it was estimated that Texas—based on recent
population trends—would gain at least two, possibly
three, congressional seats following the 2020 census. 34
New Jersey is also likely to lose seats if undocumented
31. Evenwel, 136 S. Ct. at 1129.
32. App. 344-45, ¶ 11.
33. App. 344-45, 365-67, ¶¶ 11, 42-43, Table 7.
34. Election Data Serv., Some Change in Apportionment
Allocations with New 2017 Census Estimates; But Greater Change
Likely by 2020, 2-3 (Dec. 26, 2017),
h t t p s : // w w w. e l e c t i o n d a t a s e r v i c e s . c o m / w p - c o n t e n t /
uploads/2017/12/NR_Appor17c3wTablesMapsC2.pdf (last accessed
Nov. 9, 2020).

17
immigrants are excluded from the apportionment base. 35
Florida and New York may lose a seat as well. 36 Thus, the
ramifications of malapportionment will likely be felt by a
large percentage of the U.S. population who live and vote
in the Artificially Lowered Apportionment States.
The Memorandum directly and fundamentally affects
political representation in Congress by leaving residents
of Artificially Lowered Apportionment States artificially
underrepresented. This removal of representation affects
every single state resident—even those legal residents
who will not be excluded from the apportionment base—
by creating an unbalanced distribution of political power.
This decrease in political power is tangible. 37 Studies
have shown that the loss of a congressional seat likely
decreases a state’s share of federal outlays due to its
reduction in voting power in Congress. 38 The distribution
35. App. 344-45, 365-66, ¶¶ 11, 42, Table 7.
36. Id.
37. The aftermath of the 1962 case in which the U.S. Supreme
Court ordered a correction to Tennessee’s apportionment law,
Baker v. Carr, 369 U.S. 186 (1962), illustrates this. Following
the court-ordered apportionment correction, counties that were
underrepresented prior to the suit due to malapportionment saw
their representation increase when apportionment was corrected. See
App. 344-45, ¶ 49 (citing Roy Elis, Neil Malhotra & Marc Meredith,
Apportionment Cycles as Natural Experiments, 4 Pol. A nalysis
17, 358–376 (2009)). Further, previously underrepresented counties
also saw their share of state spending increase. See App. 344-45,
¶ 49 (citing Stephen Ansolabehere, Alan Gerber, & Jim Snyder, 4
A m. Pol. Sci. Rev. 96, 767-777 (2002)).
38. Elis, Malhotra, & Meredith, supra note 37, at 358-376
(2009). It is a well-established finding in political science and political

18
of federal funds is based, in part, on the number of seats a
geographic area holds in Congress. 39 Studies show that an
increase in a state’s share of the number of representatives
leads to an increase in that state’s share of the federal
budget.40
A further ripple effect of the malapportionment of
Congressional seats is that states whose population is
artificially decreased will receive fewer Electoral College
votes in future elections. Article II, Section 1, Clause 2 of
the U.S. Constitution specifies that the sum of each state’s
electors is equal to the sum of the state’s membership
in Congress; the number of Electoral College votes is
directly related to the size of a state’s congressional
delegation. Thus, a loss of representation stemming from
the Memorandum manipulates states’ importance and
influence in future presidential elections.
This artificial shift in political power will significantly
harm the League’s own members in Artificially Lowered
Apportionment States. The loss in representation will be
felt directly—in the form of reduced political power on a
per-resident basis—by League members who reside in the
Artificially Lowered Apportionment States. This further
undermines the League’s mission because it will be more
difficult to persuade individuals to vote—especially in the
Artificially Lowered Apportionment States—if their votes
are expected to count for less.
economy that the loss of political power as a result of the loss of
representation leads to the loss of funding. See Dep’t of Commerce,
351 F. Supp. 3d at 516.

39. Elis, Malhotra, & Meredith, supra note 37, at 360.
40. Id.

19
These negative impacts will be long-lasting. For at least
the next decade, the Artificially Lowered Apportionment
States will suffer from reduced representation in Congress
(relative to representation that reflects an accurate
apportionment base). “Fairness in representation,
embodied in the concept of one person, one vote, is one
of the most important normative standards against
which democratic institutions are measured.”41 When a
state faces underrepresentation in Congress, all of its
constituents—regardless of political affiliation—suffer
from the inequity of having to “share” their representative
and federal resource allocation with more of their
neighbors than do residents of other states.42

41. Id. at 373.
42. A ndrew H acker, Congressional Districting: The Issue
of Equal Representation (1963).

20
CONCLUSION
The judgment of the district court should be affirmed.
		

Respectfully submitted,
Blaine I. Green
Counsel of Record
Kevin M. Fong
Pillsbury Winthrop Shaw Pittman LLP
Four Embarcadero Center, 22nd Floor
San Francisco, CA 94111
(415) 983-1000
blaine.green@pillsburylaw.com
Jennifer G. A ltman
Pillsbury Winthrop Shaw Pittman LLP
600 Brickell Avenue, Suite 3100
Miami, FL 33131
(786) 913-4900
Michael J. Pisko
Patricia Rothenberg
Melissa Pettit
Pillsbury Winthrop Shaw Pittman LLP
31 West 52nd Street
New York, NY 10019
(212) 858-1000
Counsel for Amici Curiae

November 16, 2020

